MASTERCARD
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

4.90%
F2

Introductory APR, for qualifying members, for a period of

six months.
After that, or if you do not qualify for the Introductory APR, your APR

8.25%
F3

APR for Balance Transfers

APR for Cash Advances
How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

to 16.30%
F4

will be
, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
4.90%
F5
Introductory APR, for qualifying members, for a period of six
months.
After that, or if you do not qualify for the Introductory APR, your APR
will be 8.25%
F6
to 16.30%
F7
, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.
8.25%
F8
to 16.30%
F9
when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.
1.00%
F10

of each transaction in U.S. dollars

Up to $30.00 F11
Up to $30.00 F12

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Promotional Period for Introductory APR: The Introductory APR for purchases and balance transfers will apply to
transactions posted to your account during the first six months following the opening of your account.
Effective Date:
The information about the costs of the card described in this application is accurate as of February
F13
1, 2016 .
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Rush Fee
Card Replacement Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

$30.00
F14
or the amount of the required minimum payment, whichever is
less, if you are ten or more days late in making a payment.
$30.00
F15
or the amount of the required minimum payment, whichever is
less.
$30.00
F16
F17
$5.00

DTXWO5 (MXC403 CCM003)-e

